Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Beneficiary     Satisfaction:      1997




                       JUNE GIBBS BROWIf
                        Inspector General

                            JUNE 1998
                          OEI-04-97-00030
                         OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                   HEADQUARTERS

Betty Apt, TeamLeader 
                                  Wynethea Walker, Program Specialist
Jason Stanfield, Contractor 
                            Linda Moscoe, Technical Support
Jackie Watkins, Program Analyst 
                        Brian Ritchie, Technical Support
Joe Townsel, Program Analyst 
                           Barbara Tedesco, Technical Support
Paula Bowker, Program Analyst 

Janet Miller, Program Analyst 




        To obtain copies of this report, pleasecall the Atlanta Regional Office at (404) 562-7743.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
PURPOSE

To determine the experience with and satisfaction of fee-for-service beneficiaries with Medicare
services.

BACKGROUND

This is the sixth survey the Office of Inspector General (OIG), Department of Health and Human
Services (I-II%), has conducted to determine beneficiary experience and satisfaction with
Medicare services. In July 1997, we surveyed 1269 randomly selected beneficiaries for whom
Medicare Part B claims were submitted in Calendar Year 1996. Participation in the survey was
voluntary and yielded a response rate of 77 percent--977 beneficiaries. Prior to the 1997 survey,
the most recent one had been conducted in 1995.

FINDINGS

As in 1995, beneficiaries report positive experience with the Medicare program.

  0	   Beneficiary Understanding--Eighty-one   percent of the beneficiaries responding to our
       survey said the Medicare program was understandable.

  0	   Getting Information--Seventy-five     percent of the beneficiaries said they could get
       information about Medicare when they needed it. Most beneficiaries said they would
       consult their physician (68 percent) or their Medicare Handbook (55 percent) to get
       specific information.

  0	   Participating Physicians--Seventy-seven percent of the beneficiaries that replied to our
       survey said that they were aware of participating physicians.

  0	   Claims Processing--Eighty-nine percent of the beneficiaries said they were satisfied with
       the way Medicare carriers processed their claims.

Beneficiary   awareness of one service improved from 1995 to 1997.

  0	   Flu Shots--Eighty-three percent of beneficiaries were aware that Medicare will pay for flu
       immunizations. In 1995, only 76 percent knew.

Beneficiary   awareness of some services declined.

  0	   Second Surgical Opinions--In 1997, 66 percent of beneficiaries were not aware
       Medicare would pay for a second opinion concerning the need for surgery. This is an




                                                 i
       increase from 1995 when 60 percent did not know about Medicare’s second surgical
       opinion coverage.

       Physician Fees--Thirty-three percent of the beneficiaries surveyed did not know Medicare
       limits physicians’ fees for specific services. This is an increase from 1995 when 26 percent
       did not know about the limits.

       Medicare Claims--Ten percent of responding beneficiaries did not know that their
       doctors were supposed to file their Medicare claims for them. This is an increase from
       1995, when only 7 percent did not know.

Some services needed improvement       in 1995, and still do in 1997.

       Claims Processing--Twenty-two     percent of beneficiaries experienced at least one
       problem with their last Medicare claim.

       Telephone Service--Fifty-seven percent of beneficiaries who had called their carriers
       experienced at least one problem when calling. Twenty-seven percent who had tried to
       call had to call three or more times to get through.

       Appeal Rights--Thirty-two    percent of the beneficiaries surveyed did not know they could
       appeal or request a review of decisions made by Medicare carriers concerning their claims.

       Mammograms--Twenty-three    percent of the female beneficiaries surveyed did not know
       that Medicare pays for mammograms.

       Hospital Care--Of those beneficiaries who had been a patient in a hospital for at least one
       night, 18 percent said it was not clear what Medicare had paid for. In addition, 29 percent
       said they had not received written information concerning their rights as a Medicare
       patient.

Beneficiary   awareness of some services not reported on in 1995 was found to be lacking in
1997.

  0	   Pneumonia Shots--Forty-two percent of the beneficiaries were not aware that Medicare
       pays for pneumonia immunizations.

  0	   Home Health Hot Line--Eighty percent of all responding beneficiaries, and 73 percent of
       those who had received home health, did not know that States provide a “hot line” to
       register complaints about home health care.




                                                 ii
RECOMMENDATION

We recommend that the Health Care Financing Administration develop a plan for improving
beneficiary satisfaction and understanding in the problem areas mentioned above. Several of the
problem areas cited have been identified as problems in previous OIG reports. For example,
problems with carrier telephone service have been noted in each of the six reports on beneficiary
satisfaction. In the past, HCFA has agreed these are problem areas, and planned corrective
actions. Nevertheless, some of the same problems continue to exist. We suggest that in planning
corrective actions, HCFA set numerical goals that can be tracked for program improvement. We
believe this activity can be useful to HCFA in correcting the problems and fulfilling requirements
of the Government Performance and Results Act.

AGENCY     COMMENTS

The HCFA Administrator reviewed our draft report and concurred that HCFA should develop a
plan to improve beneficiary satisfaction and understanding in the troubled areas identified by the
survey. HCFA has initiated a National Medicare Education Program that will use
multidimensional strategies to assist beneficiaries make informed health care decisions. Further,
HCFA will provide access to program information via the Internet and an updated Medicare
Handbook. HCFA is also evaluating additional performance measures for carrier telephone
service. We continue to believe that it would be useful for HCFA to set numerical goals that can
be tracked to determine if new initiatives improve program performance.

HCFA also suggested changes for our 1998 survey of Medicare beneficiaries. We appreciate
HCFA’s input on our survey instrument. As in the past, we plan to continue working with HCFA
to refocus certain parts of the survey to provide more useful information to HCFA policy makers.




                                                 ...
                                                 111
                                                                                                                                       PAGE
EXECUTIVE         SUMMARY

INTRODUCTION                .......................................................... 1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3 


  Beneficiaries Report Positive Experience with Medicare Program ......................                                                        3

       Generally Understand Program ............................................                                                               3

       Can Get Needed Information ............................................                                                               .4 

       Knew About and Used Participating Physicians ...............................                                                            5

       Are Satisfied with Claims Processing .......................................                                                            6

        Claims are Paid Quickly Enough .........................................                                                             .7 

       Are Satisfied with Carrier Telephone Service .................................                                                          8


  Awareness of Flu Shots Improved                     ........            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9 


  Awareness of Some Services Improved ......                                ..................................                                 9

       Second Surgical Opinions ............                                ..................................                                 9

       Limits on Physician Fees .............                               ..................................                                 9

       Physicians Filing Medicare Claims ......                             .................................                                 10 


  Some Services Continue to Need Improvement                                .   .   .   .   .   ....             .   .   ..........           10 

      Claims Processing Problems ...........                                .   .   .   .                        .   .   ..........           10 

      Calling Carriers ....................                                 .   .   .   .   .   ... ...          .   .   ..........           12 

      Appeal Rights .....................                                   .   .   .   .   .                    .   .   ..........           14 

      Hospital Reimbursement .............                                  .   .   .   .   .                    .   .   ..........           15 

      Mammograms .....................                                      .   .   .   .   .   ......           .   .                        15 


  Some New Problems Observed ...............................................                                                                 15 

      PneumoniaShots ...................................................                                                                  ..15 

      Home Health Hot Line .................................................                                                                 15 


RECOMMENDATIONS.....................................................                                                                          16 


AGENCYCOMMENTS.....................................................19 


APPENDICES

         Responses to 1997 Survey of Beneficiary Satisfaction ........................                                                     A-l
         Analysis of Respondents vs. Non-Respondents ..............................                                                        B-l
         Related OIG Surveys .................................................                                                             C-l
         HCFA Comments ....................................................                                                                D- 1 

                               INTRODUCTION 

PURPOSE

To determine the experience with and satisfaction of fee-for-service beneficiaries with Medicare
services.

BACKGROUND

Medicare is a Federal health insurance program for individuals age 65 and older, and for certain
categories of disabled people. Medicare was authorized in 1965 by title XVIII of the Social
Security Act. In Calendar Year 1997, Medicare served over 38 million people, known as
beneficiaries, and paid benefits totaling over $211 billion.’

The Health Care Financing Administration (HCFA), Department of Health and Human Services
(HI%), has responsibility for the Medicare program. However, other organizations share
program administration. The Social Security Administration establishes eligibility, enrolls
beneficiaries in the program, and collects Medicare premiums. Private health insurance companies
contract with the Federal Government to service claims for Medicare payment. Insurance
companies that handle hospital claims are called intermediaries. Those handling physician claims
are called carriers.

METHODS

In July 1997, we surveyed 1269 randomly selected Medicare beneficiaries. We initially selected
1284 beneficiaries for whom Medicare Part B claims had been filed in Calendar Year 1996.
However, we dropped 15 beneficiaries from our sample because 12 questionnaires were
undeliverable and 3 beneficiaries were deceased. This reduced the sample size from 1284 to
1269. Appendix A contains our questionnaire and beneficiaries’ responses to the questions.

Based upon previous experience with similar client and beneficiary surveys, the sample size of
1284 beneficiaries was calculated to produce an estimate within 3.5 percent of the true value at
the 95 percent confidence level. We used standard equations for estimating sample size with a
binary response variable.

Beneficiary participation in the survey was voluntary. A total of 977 beneficiaries returned
completed questionnaires, for a response rate of 77 percent. Another 26 beneficiaries sent in
completed questionnaires, but we received them too late to include their responses in our analysis.
Given the size of our sample and response rate, results of our survey are projectable to the
universe of 38 million Medicare beneficiaries.


   ‘Health Care Financing Administration, United StatesDepartment of Health and Human Services,HCFA
Statistics,October1997.
Percentages in the report are based on the number of beneficiaries answering each question.
Appendix B presents an analysis of respondents and non-respondents.

Comparison to Previous Surveys

In 1989, 1991, 1993, 1994, and 1995, we conducted similar national surveys of Medicare
beneficiaries to assesstheir awareness of and satisfaction with various aspects of the Medicare
program. (Appendix C lists our previous reports on beneficiary satisfaction.)

The majority of questions used in the 1997 survey were used in our 1993, 1994, and 1995
surveys. Therefore, Medicare beneficiary responses in those years are comparable to our 1997
survey results.

The 1993, 1994,. 1995, and 1997 surveys were also similar to the 1989 and 1991 surveys.
However, some questions were worded and sequenced slightly different. Additionally, we
provided more response options to questions in the 1993, 1994, 1995, and 1997 surveys than we
did in the 1989 and 199 1 surveys. Therefore, we cannot compare beneficiary responses in each of
the six survey years for all questions. However, we did make comparisons whenever possible,
and determined significant differences in responses through use of a t-test. If there was a
statistical difference between the responses to the 1995 and 1997 surveys, we stated in the report
that a percent increased or decreased, depending on the finding. If there was not a statistical
difference, we stated in the report that the percent stayed about the same.



We conducted this inspection in accordance with the Quality Standuds for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                                 2

                                      FINDINGS 


BENEFICIARIES       REPORTED         POSITIVE   EXPERIENCE        WITH THE MEDICARE
PROGRAM

In 1997, beneficiaries were positive about several aspects of the Medicare program. In the
following areas, beneficiaries responded similarly to those in our 1995 survey.

 0     They said they understood the program and could get information when they needed it.

 0     They were aware of and used participating physicians.

 0	    Most who had called their carriers were at least generally satisfied with the service they
       received.

 0     Over three-quarters said that their Medicare claims were paid quickly enough.

Beneficiaries Generally Understand the Program

Eighty-one percent of the beneficiaries said that the Medicare program is understandable. This is
about the same as in 1994 and 1995, when 79 and 80 percent respectively said the program was
understandable. Figure 1 shows the level of understanding over the 6 years we have surveyed
Medicare beneficiaries.

                                              Figure 1
                                  BENEFICIARIES     UNDERSTAND
                                   THE MEDICARE PROGRAM
                        PERCENT
                  100




                          1989       1901    1893          1894   1096
                                                    YEAR




                                                    3

Beneficiaries Can Get Needed Information

Getting General Information:      Seventy-five percent of the beneficiaries said they could get
general information about Medicare when they needed it. This is not significantly different from
the percent of beneficiaries who believed they could do so in 1995. Table 1 shows the percent of
beneficiaries who said they can get general information over the last 4 years.

                                             Table 1
     PERCENT        OF BENEFICIARIES       WHO CAN GET GENERAL               INFORMATION
                                    1993          1994         1995          1997

                      Yes           72%           75%          78%            75%

               .      No             7%            5%           5%             5%
                   Don’t Know       21%           20%           17%           20%

Getting Specific Information:     Seventy-one percent of the beneficiaries who have needed
specific information about their Medicare coverage said they have been able to obtain it most of
the time. Table 2 shows that this percentage is the same as in 1995.

                                             Table 2
     PERCENT        OF BENEFICIARIES        WHO CAN GET SPECIFIC             INFORMATION




Sources of Information:    Beneficiaries were asked to indicate which places they might go to
obtain answers to questions about what Medicare pays for. They could identify more than one
source.

Most beneficiaries said they get Medicare information from their physicians’ offkes and the
Medicare Handbook. Sixty-eight percent of all beneficiaries said they would go to their
physicians’ offices. Fifty-five percent of the beneficiaries surveyed said they would refer to the
Medicare Handbook. Other sources that were acknowledged as good sources by more than a
quarter of those surveyed were carriers (38%) and Social Security Ofices (28%).
Most Beneficiaries Knew About Participating                                                                                    Physicians

Medicare has “participating physicians” who agree to charge no more than the Medicare approved
amount. Medicare pays 80 percent of the approved amount. A beneficiary is responsible for
paying a deductible and a 20 percent coinsurance. Figure 2 shows that the number of
beneficiaries who were aware of participating physicians in 1997 has remained about the same as
past years’ findings.

                                                          Figure 2
           BENEFICIARY                          AWARENESS OF PARTICIPATING                                                                                                                                     PHYSICIANS
                              PIERCENT
                        100 I­
                         DOI -’ ...................................................................................................................................
                                                                                   83                     82                     80
                                                                                                                     ..................
                         80 I -’ ......n.. ................T6.. ..........                    ......                                                    3.7.. .....

                         70 , -’                                     ......                                 ......               ......                    ......                     ......

                         60 I -’                                     ......                                 ......               ......                    ......                      ......

                         60 I -’                                     ......                                 ......               ......                    ......                      ......

                         40 I -.                                     ......                                 ......               ......                    ......                      ......

                         30 I -.                                     ......                                 ......               ......                    ......                      ......

                         20 , -.                                     ......                                 ......               ......                    ......                      ......

                         10 I -.                                     ......                                 ......                                         ......                      ......

                              0I-
                                                1989                                   1091                            1003                1094                         IQ06                            1997
                                                                                                                               YEAR




Figure 3 shows that beneficiaries’ use of “participating physicians” is about the same as in 1995.

                                                                                  Figure 3
                 BENEFICIARY                                               USE OF PARTICIPATING                                                                                        PHYSICIANS
                                PERCENT
                        100
                         90
                         80         _ ...........................................................................                             ll..   ................    71..   ............................


                         ,o         - .......      86’.        ..................                    ...............    *6..   ..........................                                                 .6.8.....


                                                                      ......                                 ......               ......                   ......                      ......


                                                                      ......                                 ......               ......                   ......                      ......
                                                                      ......                                 ......                                        ......                      ......
                                                                      ......                                 ......               ......                   ......                      ......


                                                1989                                   1991                            1993                1004                         1996                            1997
                                                                                                                               YEAR




Twenty-seven percent of beneficiaries we surveyed said they did not know if their physicians were
“participating.”


                                                                                                                                5

Beneficiaries are Satisfied with Claims Processing

Eighty-nine percent of the beneficiaries said they are at least “generally” satisfied with the way
Medicare carriers processed their most recent claim for a doctor’s visit. As Figure 4 illustrates,
few beneficiaries said they were dissatisfied.

                                                        Figure 4
                          SATISFACTION                WITH CLAIMS         PROCESSING


                                                Wry   Satirfiod    48%




                                                                           Claim     Not     Paid    bt   2%
                                                                            Vary     Olrs~tlsflod         1%
                                                                         Qonorally         Olss~tlsfl~d        1%




                  Qonrrally   8atlrflad   41%




Figure 5 shows the number of beneficiaries expressing satisfaction remains high. However,
interpretation of trends for the past 6 years should be done with the understanding that we
changed our survey instrument in 1993. This change could slightly affect the trend. The 1993,
 1994, 1995, and 1997 surveys had a response option that was not offered in 1989 and 199 1.
Also, in 1989, when beneficiaries could file their own claims, we asked only those beneficiaries
who submitted their own claims about their satisfaction.




                                                                  6

                                                       Figure 5
     TRENDS IN BENEFICIARY                        SATISFACTION                 WITH CLAIMS              PROCESSING
                         PERCENT
                100
                 90                                         ..... .   a6           ...
                 80
                 70
                 00
                 60
                 40
                 30
                 20
                    10
                     0
                           1988            1881         1893           1994              1996      1997
                                                               YEAR
                           -   SATISFIED      m     DISSATISFIED           m   NEITHER/UNPAID   CLAIM




Beneficiary Claim        are Paid Quicky Enough

Seventy-seven percent of the beneficiaries agree that their Medicare claims are paid quickly
enough. This is approximately the same as 1995’s finding. Fourteen percent of those answering
the survey did not know if their claims were paid quickly enough.


                                                  Figure 6
                         MEDICARE           PAYS CLAIMS QUICKLY                           ENOUGH




                                                                                Don’t Know
                                                                                    14%




                                                               7

Most Beneficiaries are Satisfied with Carrier Telephone Service

About 14 percent of the beneficiaries we surveyed said they had tried to call their carriers. Figure
7 shows that 79 percent of those beneficiaries who had called their carriers said they were at least
generally satisfied with the service they received the last time they called.

                                              Figure 7
                   SATISFACTION           WITH CARRIER                PHONE SERVICE



                                                             Very Satislied    40%




                                             v                     Neither    11%




Figure 8 shows that the percent of beneficiaries who were satisfied with carrier telephone service
in 1997 is about the same as in 1995, which means satisfaction is still high.

                                               Figure 8
      TRENDS IN BENEFICIARY               SATISFACTION                WHEN CALLING                    CARRIERS
                     PERCENT




                    “-   lQ89      1991          1993          1994               1996         1997
                                                        YEAR

                           m    SATISFIED    m     DISSATISFIED               m      NEITHER




                                                        8

AWARENESS        OF FLU SHOTS IMPROVED             FROM 1995 TO 1997

The only area to show improvement from 1995 was beneficiary awareness of flu shots. Eight-
three percent of the respondents were aware that Medicare will pay for immunizations as
compared to 76 percent in 1995. This is determined to be a statistically significant difference.

AWARENESS        OF SOME SERVICES DECLINED                IN 1997

Some areas that we identified as problems in 1995 were greater problems in the 1997 survey.
More beneficiaries were unaware of Medicare’s coverage of second surgical opinions, limits on
physicians’ fees, and the requirement that physicians file claims.

About Two-Thirds of Medicare Beneficiaries      Were Not Aware that Medicare Provides for
Second Surgical Opinions

In 1997, 66 percent of all beneficiaries surveyed were not aware that Medicare pays for a second
opinion on the need for surgery. Table 3 shows that this is a significant increase from 1995, when
60 percent did not know Medicare paid for second opinions.

                                        Table 3
                               SECOND SURGICAL            OPINIONS
                                         1989      1991     1993        1994   1995      1997
     I
           Unaware of Second              57%      59%       61%        64%     60%      66%
            Surgical Opinions


About One-Third of Beneficiaries     Were Not Aware that Medicare Limits Physician Fees

In our 1997 survey, we asked beneficiaries if they knew Medicare limits the fees that physicians
can charge for specific services. Thirty-three percent of the beneficiaries did not know about the
limits. This is a seven percent increase from the previous two survey findings, 1994 and 1995.
Table 4 shows the decrease of knowledge about Medicare regulating physician rates.

                                              Table 4 

                           MEDICARE       LIMITS PHYSICIAN          FEES 


                                          I      1994            1995           1997

            Unaware That Medicare                26%             26%            33%
          , Limits Phvsician Fees




                                                  9

About 10 Percent of Beneficiaries   Were Unaware that Physicians Should File Medicare
Claims

In 1997, 10 percent of the responding beneficiaries said they were unaware that their doctors
were supposed to file their Medicare claims for them. This is a significant increase from 1995,
when only seven percent did not know.

SOME SERVICES        NEEDED IMPROVEMENT                IN 1995, AND STILL DO IN 1997

Overall, beneficiary understanding of and satisfaction with Medicare program services was
positive. However, some trouble spots remain. Several problem areas identified in our 1995
survey failed to improve in 1997.

  0    Some beneficiaries had problems with claims processing and carrier telephone services.

  a	   Some beneficiaries were not aware of their appeal rights and almost a fourth of the female
       beneficiaries were not aware that Medicare paid for mammograms.

About One-Fifth of Medicare Beneficiaries Identi$ed Problems with Claims Processing

Although 89 percent of beneficiaries are at least generally satisfied with claims processing, 22
percent identified one or more problems with their last Medicare claim. More beneficiaries cited
problems in 1997 than in 1995, when 19 percent cited one or more problems; however, this is not
a statistically significantly difference.

Figure 9 shows claim processing problems beneficiaries experienced before their claims were paid.
Numbers in the figure represent the percent of all beneficiaries surveyed.




                                                10 

                                                                                      Figure 9
            BENEFICIARY                       PROBLEMS                                 PRIOR TO PAYMENT                                                           OF CLAIMS 





                             Probkm         Getting          Claim         Stalum                                       Claim         Paymont            Taking            Too Low

                              m        1981              ~1903                          @#id1994                       ml996                          m           1997




Figure 10 shows claims processing problems beneficiaries experienced after their claims had been
paid. Numbers in Figure 10 represent the percent of all beneficiaries surveyed.

                                                            Figure 10
              BENEFICIARY                           PROBLEMS AFTER PAYMENT                                                                                   OF CLAIMS
                      PERCENT
                 60


                 40 r...3a     ,,,,,..._._.,,,,,,,,,,,,,,,.,...............,,,,,,,,,,,,...................,,,,,,,,,,....................................................



                 30



                 20               .        . .......... .              . .......08 .__.................,,,,,..............................................................



                 10




                                                                                                 11 

Over Half of Medicare Beneficiaries     who Had Called Their Carriers Experienced Difficulty
Calling

While beneficiaries who called their carriers generally expressed satisfaction, over half, 58
percent, said they experienced problems. They had difficulty getting access to their carriers, using
carriers’ automated voice systems, and getting answers once they got through to the carriers.
Table 5 shows this is the same percent of beneficiaries who experienced problems in 1995.

                                          Table 5
               BENEFICIARIES        WITH PROBLEMS           CALLING      CARRIERS




Getting Telephone Access with Carriers is Diffkult for Beneficiaries: About 14 percent of
the beneficiaries surveyed had tried to call their carriers. However, 6 percent of the beneficiaries
answering our question said they had wanted to call, but did not have their carrier’s phone
number.

In 1997,27 percent said they had to try three or more times to get through to their carriers.
Further, 3 percent were unable to get through at all. Table 6 shows that getting access to a
Medicare carrier is a continuing problem.


                                             Table 6
                                      CALLING CARRIERS
                Number of Tries




The beneficiaries who had called their carriers were given a list of possible reasons why they
might have been dissatisfied the last time they called. They could cite as many problems as they
experienced.




                                                  12 

Figure 11 shows that 60 percent of beneficiaries either encountered a busy signal or thought they
were put on hold too long when they called their carriers to get questions answered. Numbers
shown in the chart represent the percent of beneficiaries who had called their carriers.

                                                        Figure 11
          BENEFICIARY            PROBLEMS               GETTING THROUGH                           TO CARRIERS


                       PERCENT

                  90 ....................................................................................................................
                  60 ....................................................................................................................
                        71’
                    I        ,,,..,..........,,..,,,.,,.......,..........,.....................,,,,,,,,..,...............................................
                  70
                  60                            ................ ....                        .......        ........
                  60                                                             ,,,,,..._..........................

                  40                                                             ,,,,,....._,.,..............................

                  30
                  20
                  10
                   0
                                  LINE BUSY                                     PUT ON HOLD
                         -1980        ml001          ml008              ml804   ~1008              tjlQ97




Beneficiaries Experienced Other Problems After Getting Access to Carriers: Figure 12
shows that in 1997, some beneficiaries experienced other problems after they got a telephone
connection with their carriers.




                                                                    13 

                                                    Figure 12
      BENEFICIARY             PROBLEMS          AFTER GETTING              THROUGH         TO CARRIERS


                   PERCENT
              60


              40


              30


              20


              10


               0
                          D~~FgEwREl           UNCOURfEOU8            ANSWERS NOT       QUESTION
                                                                      UNDERSTOOD      UNANSWERED

                      -1980            mlQQ1      mlQQQ         mlQQ4       mlQQ5     a1987




Almost One-Third of Beneficiaries              Were Not Aware of Their Appeal Rights

In 1997, 32 percent of the beneficiaries surveyed were unaware that they could appeal or request
a review of decisions Medicare carriers made about their claims. Although this in no worse than
in 1995 when 34 percent lacked such knowledge, it indicates needed improvement. Table 7
shows the percentages of beneficiaries who did not know they could appeal or request a review of
their Medicare claims.

                                                          Table 7
                                  AWARENESS               OF APPEAL        RIGHTS
                   Year                1989       1991         1993        1994     1995          1997
            Beneficiaries              24%        22%          25%         31%      34%       a   32%
             Not Aware

In 1997, 4 percent of the beneficiaries said they had appealed a Medicare decision on their claims.
This response was exactly the same as the response in 1995.




                                                             14 

Almost One-Fift     of Hospitalized Beneficiaries Did Not Know what Medicare Paid

Eighteen percent of the beneficiaries surveyed who had been a patient in a hospital for at least one
night said that it was not clear what Medicare had paid for. This is about the same as in 1995,
when 23 percent did not understand what Medicare had paid for.

Of those beneficiaries who had been a patient for at least one night in a hospital, 29 percent said
they had not received written information entitled “An Important MessageFrom Medicare.” The
information provides beneficiaries with knowledge about their rights to ask for a review if they
believe they are being discharged from hospitals too early.

Almost One-Foutih    of Women Were Unaware that Medicare Paidfor          Mammograms

Twenty-three percent of the female beneficiaries surveyed did not know that Medicare pays for
mammograms. This is about the same as in 1995, when twenty-four percent of the female
respondents did not know about Medicare’s mammogram policy.

BENEFICIARY AWARENESS OF SOME SERVICES NOT INCLUDED                               IN OUR 1995
REPORT WAS FOUND LACKING IN 1997

Beneficiary knowledge about other aspects of the Medicare Program also need improvement.
These were not mentioned in our 1995 report.

Pneumonia Shots: Forty-two percent of the beneficiaries did not know Medicare pays for
pneumonia shots.

Home Health Hot Line: Eighty percent of all the beneficiaries surveyed, and 73 percent of those
who had received home health services, did not know that each State has a “hot line” to register
complaints about home health care.




                                                15 

                      RECOMMENDATIONS

We recommend that HCFA develop a plan for improving beneficiary satisfaction and
understanding in the trouble areas mentioned in this report.

Several of the problem areas cited have been identified as problems in previous OIG reports. For
example, problems with carrier telephone service have been noted in each of the six reports on
beneficiary satisfaction. In the past, HCFA has agreed these are problem areas, and planned
corrective actions. Nevertheless, some of the same problems continue to exist. We suggest that
in planning corrective actions, HCFA set numerical goals that can be tracked for program
improvement. We believe this activity can be useful to HCFA in correcting the problem areas and
fulfilling requirements of the Government Performance and Results Act.

Problems identified in this survey and in previous years that still need attention are highlighted
below

  0	    Claims Processing: Almost one quarter (22 percent) of the beneficiaries experienced a
        problem with their last Medicare claim.

        Telephone Service: The number of beneficiaries experiencing problems when calling
        remains high (57 percent). Further, over one-fourth (27 percent) of the beneficiaries had
        to call three or more times to reach their carriers.

        ADDeal Riphts: Almost one-third (32 percent) of the beneficiaries surveyed said they did
        not know they could appeal Medicare decisions about their claims.

        Mammowams:      Almost one-fourth (23 percent) of the female beneficiaries surveyed did
        not know Medicare paid for mammograms.

        Hospital Reimbursement:         Eighteen percent of the beneficiaries who had been a patient
        in a hospital for at least one night said it was unclear what Medicare would pay for. Also,
        only 30 percent said they received information that provides beneficiaries with knowledge
        about their rights to ask for a review if they believe they are being discharged from
        hospitals too early.

By 1997, the extent of some problems identified in 1995 had gotten worse.

  0	    Second Surgical ODinions: In 1997, 66 percent of the beneficiaries surveyed did not
        know that Medicare will pay for a second opinion on the need for surgery. In 1995, only
        60 percent were unaware.




                                                   16 

  0	    Physician Fees: In 1997 one-third (33 percent) of the beneficiaries surveyed did not
        know Medicare limits physicians’ fees for specific services. This is an increase from 1995
        (26 percent).

  0	    FilinP Claims: In 1997, a tenth of the responding beneficiaries were not aware that their
        physicians should file their Medicare claims for them. In 1995, only 7 percent did not
        know.

Finally, some new problems identified in our 1997 survey need attention.

  0	    Pneumonia Shots: Forty-two percent of the beneficiaries surveyed did not know
        Medicare paid for pneumonia immunizations.

  0	    Home Health Hot Line: Eighty percent of all beneficiaries, and 73 percent of those who
        had received home health services, did not know a State “hot line” to register home health
        complaints existed.




                                                17 

The HCFA Administrator reviewed our draft report and concurred that HCFA should develop a
plan to improve beneficiary satisfaction and understanding in the troubled areas identified by the
survey. HCFA has initiated a National Medicare Education Program that will use
multidimensional strategies to assist beneficiaries make informed health care decisions. Further,
HCFA will provide access to program information via the Internet and an updated Medicare
Handbook. HCFA is also evaluating additional performance measures for carrier telephone
service. We continue to believe that it would be useful for HCFA to set numerical goals that can
be tracked to determine if new initiatives improve program performance.

HCFA also suggested changes for our 1998 survey of Medicare beneficiaries. We appreciate
HCFA’s input on our survey instrument. As in the past, we plan to continue working with HCFA
to refocus certain parts of the survey to provide more useful information to HCFA policy makers.

The full text of HCFA’s comments can be found in appendix D.




                                                 18 

              RESPONSES TO 1997 SURVEY OF MEDICARE                 BENEFICIARY
                                 SATISFACTION


     0   Not every respondent answered every question. 


     0   For Questions 12, 13, 21,25, and 26, respondents could check more than one choice. 



Question                                     Responses 


PART 1: MEDICARE          COVERAGE 



1.       In general, do you think...

         a.     The Medicare program is understandable?

                Yes                                 759
                No                                  179
                Not Answering:   39

         b.     You can get information about Medicare when you need it?

                Yes                                 711
                No                                   50
                Don’t Know                          194
                Not Answering:   22

         C.     Medicare pays your claims quickly enough?

                Yes                                 735
                No                                   88
                Don’t Know                          130
                Not Answering:   24




                                              A-l
Question                                   Responses


2. 	   Thinking about the last time you were a patient in a hosnital for at least one night,
       was it clear to you what Medicare paid for?

       (Check one answer.)

       I have not been in the
        hospital for at least
        one night since I have
        had Medicare.                               303
       Yes, it was clear what
        Medicare paid for.                          402
       No, it was not clear what
        Medicare paid for.                          115
       I do not remember if it
        was clear what Medicare
        paid for.                                   125
       Medicare has not yet paid
        the hospital.                                12
       Not Answering: 20


3.     Think about the last time you were a patient in a hosnital for at least one night.

       Were you given written information entitled “An Important Message From
       Medicare,” that said you have a right to request a review if you think the hospital is
       forcing you to leave before you are well enough?

       (Check one answer.)

       I have not been in the
        hospital for at least
        one night since I have
        had Medicare coverage.                      298
       Yes, I was given written
        information about my
        right to request a review.                  195
       No, I was not given written
        information about my
        right to request a review.                  186
       I don’t remember.                            271
       Not Answering: 27




                                            A-2 

Question                                                      Responses


4. 	       Think about the last time you received services in vour home from a home health
           agencv.

           Was it clear to you what Medicare paid for?

           (Check one answer.)

           I have not received services
            in my home from a home health
            agency since I have been on
            Medicare.                                                   670
           Yes, it was clear what Medicare
            paid for.                                                   191
           No, it was not clear what Medicare
            paid for.                                                   38
           I do not remember if it was clear
            what Medicare paid for.                                     40
           Medicare has not yet paid for the
            home health services.                                       11
           Not Answering: 27


5. 	       Before today, were you aware that your State has a “hot line” to register
           complaints about home health care?

          Yes                                                           186
          No                                                            764
          Not Answering: 27
__---------------_------------------------------------------------            _____________-----------------------------------

6. 	       If your doctor recommends that you have surgery Medicare will help you pay to get
           the opinion of another doctor.

           Were you aware before todav that Medicare would help pay for a second
           doctor’s opinion before having surgery?

           Yes                                                          325
           No                                                           635
           Not Answering:          17




                                                                A-3 

Question                                                     Responses


7.        Before today, did you know that Medicare pays for flu shots (immunizations)?

          Yes                                                        809
          No                                                         160
          Not Answering: 8
-------____---______----------------------------------------------------------------------------------------------

8.        Before todav, did you know that Medicare pays for mammograms                                     (breast
          x-rays to detect cancer)?
                                                  All          Females
          Yes                                     674          433
          No                                      270          126
          Total Not Answering: 33
          Females Not Answering: 8



9.         Before today, did you know that Medicare pays for pneumonia shots?

       Yes                                                      557
       No                                                       403
       Not Answering: 17
_________-_--_______--------------------------------------------------------            ___________--------_------------------

10. 	      Medicare has “participating   doctors” who agree to charge no more than
           Medicare’s approved amount. Medicare pays 80% of the approved amount. You
           are only responsible for paying the deductible and 20% coinsurance of the
           Medicare approved amount. Before todav, had you ever heard about Medicare
           “participating doctors?”

          Yes                                                            743
          No                                                             216
          Not Answering: 18
__---------___------------------------------------------------------           ____________________--------------------------

11.        Are any of your doctors “participating                      doctors?”

           Yes                                                           655
           No                                                             46
           Don’t Know                                                    259
           Not Answering:          17




                                                               A-4 

Question                                      Responses


12. 	   In the past, if you had a concern about the quality of your medical care, whom did
        you call?

        (Check all that apply.)

        (N = 928 - Number Responding 
 to Question)

        I did not have a concern about 

         the quality of my medical care. 
           540
        I did not know who to call. 
                167
        The insurance company that pays 

         my Medicare claims 
                        87
        Social Security Office 
                     76
        The Medicare Peer Review 

         Organization(PR0) 
                          9
        The Health Care Financing 

         Administration (HCFA) - Federal 

         Government 
                                 9
        State Department of Health 
                  11
        State Board of Medical Licensure 
             7
        My state’s insurance commission 
              6
        My local Medical Society 
                    16
        The hospital or health care 

         organization that provided the 

         care. 
                                     116
        The doctor that provided the care 
          205
        Other 
                                       24
        Not Answering: 49 





                                               A-5
Question                                             Responses

PART 2: GETTING            INFORMATION            ABOUT MEDICARE


13.      Where would you go to get information              about what Medicare pays for?

         The following are some of the places people might go to get answers if they have 

         questions about what Medicare pays for. Please check all the places you would go 

         to find out what Medicare pays for. 

         (N = 952 - Number Responding to Question) 


       My doctor’s office 
                                   644
       A friend or relative 
                                  95
       AARP or other membership 

        organization 
                                         133
       Insurance company that 

        processes my Medicare claims 
                        364
       Insurance company that issues 

        my supplemental (Medigap) 

        policy 
                                              221
       Social Security Office 
                               268
       A local Senior Citizen’s 

        group 
                                                73
       The Health Care Financing 

        Administration (HCFA) -

        Federal Government 
                                   22
       An insurance salesperson 
                               18
       The Medicare Handbook 
                                523
       The Medicare Peer Review 

        Organization (PRO) 
                                   25
       My State’s Information, 

        Counseling, and Assistance 

        (ICA) ofice 
                                          30
       Other 
                                                 27
       Not Answering: 25 

____________________------------------------------------------------------------------------------------ ----------
14. 	  Think of when you needed specific information about what Medicare pays for,
       how often were you able to get the information you needed?

         Most of the time                                      367
         Some of the time                                       98
         Seldom or never                                        55
         I have never needed information                       414
         Not Answering: 43


                                                       A-6 

Question                                                Responses

PART 3: MEDICARE                CLAIMS


15. 	     Did you know before todav that Medicare limits how much doctors can charge you
          for specific. services?

        Yes                                                      641
        No                                                       316
        Not Answering: 20
___---__---___----------------------------- ---------------_--______________________-------------------------------
16. 	   Did you know before todav that your doctors are supposed to file your
        Medicare claims for you?

          Yes                                                     869
          No                                                       98
          Not Answering: 10
--------__-__---____---------------------------   -------___---_______-----------------------------------------------

17. 	     How satisfied are you with the way Medicare processed your most recent claim for
          a doctor’s visit?

       (Check w.) 

       Very Satisfied                              454 

       Generally Satisfied                         390 

       Neither Satisfied nor Dissatisfied           58 

       Generally Dissatisfied                       11 

       Very Dissatisfied                            10 

       Medicare has not yet paid the claim          19 

       Not Answering: 35 

_________-_______--_____________________--------------------------------------------------------------------------

18. 	     Sometimes people disagree with the decisions made on their Medicare claims.
          When this happens, you may appeal or request a review of those decisions. Did
          you know before today that you could appeal or request a review?

          Yes                                                     650
          No                                                      299
          Not Answering:         28




                                                          A-7 

Question                                                       Responses


19.        Have you ever appealed a decision made by Medicare on one of your claims?

          Yes                                                             34
          No                                                             915
          Not Answering: 28
-__------------------------------------------------------------------           ---------------------------------------------

20.        Do you think your appeal was handled fairly?

       Yes                                                               25
       No                                                                 7
       I have never appealed a
        decision made by Medicare
        on one of my claims.                                             710
       Not Answering: 235
_______-_--__-------------------------------------------------           ______________--------------------------------------

21. 	      Did you have any of the following problems the last time you had a Medicare
           claim for a doctor’s visit?
           (Check as many as apply.)
           (N = 900 - Number Responding to Question)

           I had difficulty getting
            information from Medicare on
            the status of my claim.                                      18
           I did not understand what part
            of my claim Medicare paid and why.                           83
           I did not understand why Medicare
            denied the claim.                                            57
           Medicare took too long to pay my
            claim.                                                       47
           I did not understand the notice
            Medicare sent after processing my
            claim. (The notice is called
            “Explanation of Your Medicare
            Part B Benefits” or “Medicare
            Summary Notice.“)                                            100
           Other                                                           2
           I did not have a problem with
            my last Medicare claim.                                      699
           Not Answering: 77




                                                                 A-8 

Question                                                  Responses

PART 4: CALLING              MEDICARE


22. 	     Have you ever tried to call the insurance company that processes your
          Medicare claims?

          (Check one.)

          Yes      .                                                126
          No, I have not needed to call.                            752
           (Skip to Question 33.)
          No, I wanted to call, but do
           not have the telephone number.                            54
           (Skip to Question 33.)

         Not Answering: 45
___-_-------_____-----------------------------     ____________________------------------------------------------------

23. 	     Thinking about the last time you tried to call, how many tries did it take you to
          reach the insurance company that processes your Medicare claims?

          (N = 126 - Number Who Had Called)

           First Try                                             59
            Second Try                                           23
            Three or More Tries                                  32
           Never Got Through                                       3
           Not Answering Who Have Called: 9
-------------------------------------------------- -----------__---------------------------------------------------

24. 	     How satisfied were you with the service you received the last time you called the
          insurance company that processes your Medicare claims?

          (N = 126 - Number Who Had Called)

          Very Satisfied                                             47
          Generally Satisfied                                        46
          Neither Satisfied nor Dissatisfied                         13
          Generally Dissatisfied                                      7
          Very Dissatisfied                                           4
          Not Answering: 9




                                                            A-9 

Question                                   Responses


25.    Listed below are possible problems someone might have when calling the
       insurance company that processes your Medicare claims.

       From the list below, identify problems you had the last time you called the
       Medicare insurance company.

       (Check as many as apply.)

       (N = 126 - Number Who Had Called)

       The line was busy.                         42
       I had problems with the automated
        voice system.                             25
       The person answering the call was
        not courteous.                             5
       I was put on “HOLD” too long.              30
       I was not able to get my question
        answered.                                    4
       I could not understand the answer
        they gave me.                                10
       I got different answers from
        different people.                            7
       Other                                         5
       I did not have a problem with the
        service I received.                       51
       Not Answering: 6




                                           A- 10 

Question                                  Responses

PART 6: OTHER INSURANCE


26.    What types of medical insurance do you or your spouse have in addition to
       Medicare?

       (Check all that apply.)

       (N = 907 - Number Responding to Question)

       I do not have additional
        insurance coverage                          128
       Medicaid (or other State or
        county medical assistance
        program)                                    86
       Health insurance through you or
        your spouse’s current employer                  59
       Health insurance through you or
        your spouse’s former employer               313
       Private Medicare supplement
        W&zap)                                      244
       Other                                        146
       Not Answering: 70


27.    How satisfied are you with your private Medicare supplemental   (Medigap)
       insurance?

       (Check one.)

       I do not have supplemental (Medigap)
        insurance.                                  282
       Very Satisfied                               305
       Generally Satisfied                          189
       Neither Satisfied nor Dissatisfied            38
       Generally Dissatisfied                        20
       Very Dissatisfied                             10
       Not Answering: 133




                                              A- 11 

                ANALYSIS      OF RESPONDENTS          VS. NON-RESPONDENTS

A consideration in surveys of this type is that the results may be biased if non-respondents are
significantly different from respondents. To determine whether significant differences exist in this
survey, we analyzed age, gender, and time of response for the 997 respondents and the 272 non-
respondents. Age is a continuous variable which was tested using the t-test for a difference
between means. Gender and time of response are categorical variables which were tested using
the (X-square with the appropriate degrees of freedom. The analyses suggests that our survey
results were not biased with regard to these factors.

ANALYSIS     BY AGE

The average age for respondents was 73, compared to age 72 for non-respondents. A
comparison of means with the t-test revealed that the difference in average ages for the two
groups was not statistically significant.



                                   Sample        Respondents      Non-Respondents
                                  N= 1269          N=977               N=292



               t = -0.7963
               DF = 1267

ANALYSIS      BY GENDER

An analysis by gender showed that the distribution of male and female respondents was not
comparable to the distribution of non-respondents. The Chi-square test statistic was significant
for the gender variable because it was greater than 3.84 at the 95 percent confidence level. This
indicates a potential for bias in the results,




               Ll               Sample
                               N = 1269
                                              Respondents
                                                N= 977
                                                                Non-Respondents
                                                                    N=292


               ,El
               H  Female
                   Male       756
                              513
                              NSample

               (X-square = 4.179
                                 =(60%)
                                  (40%)
                                  (60%)
                                   1269        410
                                               567
                                                N= (42%)
                                                   (58%)
                                              Respondents
                                                     977            103
                                                                    189 (35%)
                                                                        (65%)
                                                                Non-Respondents
                                                                     N=292


               DF=l


                                                B-l
To determine the effect of the relationship between response rate and gender, we undertook an 

analysis of the non-respondents. Assuming that non-respondents would have responded the same 

by gender as the respondents, we calculated a hypothetical global response to Questions la, lb, 

and lc on the questionnaire. Those three questions, posed to all respondents, relate to program 

understandability, availability of information, and claims processing promptness. Calculations 

found that the responses were within the confidence intervals for the original estimates. 

Therefore, no statistical evidence of gender bias was shown. 


ANALYSIS     BY TIME OF RESPONSE 


As an additional guard against obtaining biased results, some surveys similar to this one are 

reviewed for differences which may exist between early and late responses. The rationale is that 

late respondents and non-respondents may share certain tendencies. For example, when 

compared to early respondents, late respondents could hold more negative (or, at least, less 

enthusiastic) opinions. 


To analyze for potential bias related to time of response, we compared the responses of the first 

728 respondents (75 percent) to the last 249 respondents. We performed a test using the Chi-

square test on each group’s responses to Questions la, lb, and lc. Based on the test, there was 

no statistically significant difference between the early and late responses. 





                                               B-2 

               RELATED      OIG MEDICARE          BENEFICIARY     SURVEYS


1.    A Survey of Medicare Beneficiary Satisfaction (OAI-04-89-89040),     November 1989

2.    Medicare Beneficiary Satisfaction:   1991 (OEI-04-90-89030),    October 199 1

3.    Medicare Beneficiary Satisfaction:   1993 (OEI-04-92-00480),    August 1993

4.    Medicare Beneficiary Satisfaction:   1994 (OEI-04-93-00 140), June 1995

5.    Medicare Beneficiary Satisfaction:   1995 (OEI-04-93-00 150), December 1996

6.    Medicare Beneficiaries’ Plans for Financing Nursing Home (OAT-04-90-8903 l),
      November 199 1

7.    Medicare Beneficiaries’ Plans for Financing Nursing Homes (Management Advisory
      Report), (OEI-04-92-00482), April 1994

8.    Use of Nursing Home and Medigap Guides, (OEI-04-92-0048 l), May 1994

9.    Beneficiary Awareness of HCFA Publications, (OEI-04-93-00 14l), June 1995

10.   Beneficiary Awareness of HCFA Publications:       1995, (OEI-04-93-00152),    April 1997

11.   Beneficiary Satisfaction with the 1996 Medicare Handbook, (OEI-04-96-00280),
      February 1997

12.   Medicare Beneficiary Interest in HMOs, (OEI-04-93-00 142), October 1995

13.   Beneficiary Interest in Medicare HMOs in 1995, (OEI-04-93-00151),      February 1997

14.   Medicare Beneficiary Satisfaction with and Understanding of Home Health Services,
      (OEI-04-93-00143), November 1995

15.   Beneficiary Satisfaction with and Understanding of Home Health Services in 1995,
      (OEI-04-93-00 153), April 1997

16.   Beneficiary Satisfaction with Supplemental Insurance, (OEI-04-93-00 154), January
      1997




                                            C-l
  APPENDIX    D





HCFA COMMENTS 





        D-l
b     DEPART ‘MENT OF HEALTH & HUMAN        SERVICES                       Health   Car0 FinanCing    klministtatjo,,



                                                                           The Administrator

DATE:            APR21 I990

TO:            June Gibbs Brown
               Inspector General

FROM:          Nancy-Ann Min DeParle (3w            13
               Administrator

SUBJECT: 	 Wee of Inspector General (OIG) Draft Report: “Medicare Beneficiary
           Satisfaction: 1997,” (OEI-O4-97-00030)

In July 1997, OIG surveyed 1,269randomly selectedMedicare beneficiaries to assess 

their awarenessof and satisfaction with various aspectsof the Medicare program Based 

on that survey, OIG recommendsthat the Health Care Financing Administration (HCFA) 

develop a plan for improving beneficiary satisfaction and understanding in specific 

trouble areas. We concur with the OIG recommendation and our detailed commentsare 

as follows: 


OIG Recommendation: 

We recommend that HCFA develop a plan for improving beneficiary satisfaction and 

understanding in the trouble areasmentioned in this report 


HCFA Response: 


We concur. HCFA is embarking on a National Medicare Education Programto ensure 

that consumersreceive accurate,easily understandableinformation about their benefits, 

rights, and health plan options to assistthem in becoming more active participants in their 

health care decisions. 


The National M-edicareEducation Programwill employ multidimensional strategiesfor 

educating beneficiaries in making informed decisions concerning: 


      l   program benefits and choice of health plan 

      l   health care choices 

      l   program protections and rights (i.e., appeals),and beneficiary responsibilities 

      l   health behaviors and health promotion 


As part of this program, HCFA will provide acgessto program information via the _                      :y        ’
Internet and in printed materials, suchas the Medicare Handbook. This is a phased,: .<                 g
approach that we began in February 1998 and will continue through 1999 and beyo@r­
                   T:y :
                                                                                  --_                 -3    -: 

                                                                                -.-_.                Yu   .;. 

                                                                                               :     -T -’
                                                                                                     ---
Page2 - June Gibbs Brown

Addressing Specific Trouble Areas for Improvement

Telenhone Service: The number of beneficiaries experiencingproblems when calling
remains high (57 percent). Further, over one-fourth (27 percent) of the beneficiaries had
to call three or more times to reach their carriers.

 HCF’A Resnonse:
 We agree that further improvements need to be madein order to improve the current level
 of telephone service to our beneficiaries. While HCFA is currently pilot testing several
 approachesto improving telephone sticc in the long term, we must contiue to also
 concentrate on improving the current level of serviceby Medicare carriers in the short
 term. HCFA is currently analyzing additional performancemetrics for canier telephone
 senice that would be included in the fiscal year (FY) 1999canier budget and
performance requirements. Examples of new potential metrics include: establishing a
threshold for phone calls being answeredin the first 30 seconds;handling a high
percentage of calls during the initial call, thereby minimi&g transferralsand referrals to
other entities; and measuring the quality of customerservicecontinuously, ensuring that
all telephone agentsare closely monitored for quality call handling and order processing
for accuracy, knowledge, responsiveness,clarity, tone, etc. In the upcoming months
HCFA will be discussing and costing out theseproposedmetrics with regional offices and
Medicare contractor staffs in order to reach final agreementfor performancemeasuresin
FY 1999. While clearly theseadditional resourceswould significantly improve customer
service, HCFA must move forward within its currentbudget. This meansthere may be
incremental improvements in the contractor telephoneserviceto beneficiaries given the
current funding levels.

We believe that the development of theseadditional performancemetrics will result in
improvements in telephone service to our Medicare beneficiaries.

ADDS    RiPhts: Almost one-third of beneficiaries smveyeddid not know they could
appeal Medicare decisions about their claims.

HCFA Resnonse: 

Appeal rights will be addressedin the Medicare Handbookand on our Internet site. 

Pending availability of funds, we plan to do a major outreacheffort to inform 

beneficiaries of their rights and protections. 


Mammograms: Almost one-fourth (23 percent)of the female beneficiaries surveyed
did not know Medicare paid for mammograms.
Page 3 - June Gibbs Brown 


HCFA Resoonse: 

Over the past few years, HCFA has conducted national campaigns to educate 

beneficiaries about the mammographybenefit and will continue to carry out campaigns. 

We are working in partnership with the Public Health Seth and severalnational 

organizations. 


The National Mammography 2000 Campaign is linked to the Healthy People 2ooOgoal 

of increasing the rate of screeningmammogramsin Medicare eligible women to 60 

percent. The campaignincludes a national distribution of posters,postcards,bookmarks, 

and stickers to support community-basedefforts to promote increased.nseof screening 

mammograms in the Medicare population 


The Multi-City Mammography Project is a part of the national campaign and targets 

Miican-American and Hispanic Medicare beneficiaries in six major metropolitan areas. 


We also are conducting a campaign on new Medicare prevention benefits. The campaign 

provides information about annual mammograms,which is a new Balanced Budget Act 

of 1997 provision. 


HCFA’s consumer Internet site has a Wellness Pagethat provides information on 

mammography coverageand other information on mammograms. 


Second Sureical ODinions: In 1997,66 percent of the beneficiaries surveyeddid not 

know that Medicare will pay for a secondopinion on the need for surgery. In 1995, only 

60 percent were unaware. 


HCFA Rewonse: 

This problem areawill be addressedthrough the consumerInternet site we recently 

established. 


Phvsician Fees: In 1997,one-third (33 percent) of the beneficiaries surveyeddid not 

know Medicare limits physicians’ fees for specific services. 


HCFA Resuonse: 

We will addresslimiting chargesin the Medicare Handbook and on our Internet site. 


Filine Claims: One-tenth of surveyedbeneficiaries were not awarethat their physicians 

should file their Medicare claims for them. 

 Page 4 - June Gibbs Brown 


 HCF’A Response: 

 We will addressthe filing of claims by physicians in the Medicare Handbook and on our 

 lntemet site. 


 Pneumonia Shots: Forty-two percent of the beneficiaries did not lmow Medicare pays for 

 pneumonia shots. 


HCF‘A Resnonse: 

HCFA conducts au annual flu campaign between October and February. We believe the 

campaign has contributed to the increase in awarenessthat Medicare pays for flu shots. 

This year we are working with our national prt~ers, CDC and the National Coalition for 

Adult Immunization, to promote both flu and pneumoniashots. During the campaigns, 

we distribute posters,postcards, stickers, and bookmarks. 


We also are conducting a campaign on Medicare prevention benefits. The campaign 

provides information about pneumonia shots. In addition, the Wellness Pageon the 

consumer Internet site provides information on the Flu/Pneumonia2000 campaign, 

coverage of the pneumonia shot, and questionsand answersabout pneumococcal 

pneumonia. 


Technical Comments 


1. 	   As a general response,the survey “Medicare Beneficiary Satisfaction” is not really
       a beneficiary satisfaction survey. Rather, for the most part, it focusseson
       awarenessissues. Even so, the report paints a generally positive picture of the
       beneficiary satisfaction with fee-for-service and points out someof the areas
       HCFA needsto look at for improvement.

2. 	   The survey instrument would better assistour abilities to servebeneficiaries if it
       were expandedfrom its “awareness of a right focus” to include a focus on the
       ability of the beneficiary to assertthe right and the results of suchan assertion..’
       For example, (Question 3) from amongthosesurveyedwho were aware of their
       right to appeal a hospital discharge decision,how many exercisedthe right? What
       was the outcome? Of those who didn’t know, would they have exercisedthe right
       had they known? Parallel argumentscan be raisedin other areas,suchashome
       health care and appeals. Such an expansionappearsto be consistentwith the              .
       “Purpose” of the survey as set out on page 1 and would better support a discussion
       of satisfaction.

3. 	   The numbers and percentagesin the text needto be cross-checkedwith the figures
       in the survey instrument appendix. For example,pagesii and 15 of the report state
       that 29 percent of the beneficiaries who had beena patient for at least one night in
 Page 5 - June Gibbs Brown

       a hospital statedthat they had not received written information entitled, “An
       Important Messagefrom Medicare.” The sumy instrument cites 20 percent at
       A-2, with the 29 percent figure representing those who did not remember.

4.     The options for Question 21 could be expandedto include other areas,such as
       understandingappeal rights as provided on the “Explanation of Your Medicare
       Part B Benefits” or “Medicare Summary Notice.”

5.     OIG should work with HCFA’s Center for Beneficiary Servicesto develop a
       survey instrument that would provide us with a better measureof satisfaction and a
       more useful tool for serving our beneficiaries.

6.     It is not clear which differences in fkxlings from prior surveyswere statistically
       significant, and which were not. It may be useful to group the klings as either
       statistically significant or trends to follow.

7.     The question on claims processing“problems” (item 25) would be more helpful if
       it was differentiated between problems with finding out the statusof a claim and
       problems understandingthe explanation of benefit payment.

8.    It would be useful to seean analy@sof responsesby race, socioeconomiclevel,
      and age for certain questions,e.g., knowledge of whether Medicare pays for
      mammograms(item 8).

we believe that the coordination efforts mentioned aboveshould go a long way towards
improving beneficiary satisfaction and understanding of the Medkare program.
                             -m-s s----- -s-v- --- --s- B--s--

 OIG COMMENT:         In reference to HCFA’s comment number 3 above, we rechecked our
 figures to ensure their accuracy. The percentages were correct, but different because we
 calculated percentages for the report and appendix A from different bases. In the report
 we show the percent of the 652 beneficiaries who answered the question and had been in
 the hospital. In appendix A, the percent was based on the 950 beneficiaries who answered
 the question. The 950 beneliciaries included the 652 who had been in the hospital. The
 950 beneficiaries also included the 298 who had not been in the hospital. Therefore, the
 percent shown in appendix A was lower (20 percent) that than shown in the report (29
 percent).

 To eliminate confusion, we deleted the percentages from appendix A and show only the raw
 number of responses to each question.
